No. _________________

In the Supreme Court of the United States
October Term, 2020

ELIER ISAI MARQUEZ-GONZALEZ, PETITIONER,
V.

UNITED STATES OF AMERICA
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
CERTIFICATE OF SERVICE
The undersigned, an attorney, a member of the Bar of this Court, certifies that
pursuant to Rule 29.3, Supreme Court Rules, she served the within Motion for
Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari on Counsel
for the United States, and on other parties required to be served, by enclosing a
copy of each in an envelope and delivering it to FedEx, a third-party commercial

carrier, on January 15, 2021, for delivery within three calendar days to their
post office addresses:
Jeffrey B. Wall
Acting Solicitor General of the United States
U.S. Department of Justice
10th Street & Constitution Avenue NW, Room 5614
Washington, D.C. 20530
(202) 514-2201

and depositing same in a United States mailbox at San Antonio, Texas, on January 15, 2021 Counsel further certifies that all parties required to be served have
been served.

s/ Kristin M. Kimmelman
KRISTIN M. KIMMELMAN
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner

